MEDICARE    CERTlFlED    AMBULATORY          SURGICAL          CENTERS
         CATARACT   SURGERY   COSTS   AN0   RELATED   ISSUES




OFFICE     OF INSPECTOR        GENERAL
  OFFICE OF ANALYSIS A>NGINSPECTIONS
r
.




     MEDICARE CERTIFIED AMBULATORY                  SURGICAL CENTERS
                 CATARACT   SURGERY   COSTS   AND RELATED   ISSUES




    RICHARD P. KUSSEROW                                              MARCH 1988 

    INSPECTOR GENERAL 

    OAI-09-88-00490 

J




                                EXECUTIVE SUMMARY

    PURPOSE: The inspection           was designed     to provide     the Health 

    Care Financing     Administration       (HCFA) with specific         data and 

    information    concerning:        (1) the cost of cataract          surgery, 

    (2) the provision      of ancillary      services     and (3) the instances 

    of aborted   surgeries      in ambulatory      surgical   centers      (ASCs). 

    BACKGROUND: In March 1986, the Office             of Inspector       General 

    (OIG) issued    a report     on Medicare   cataract    implant     surgery.

    The report   discussed     the costs of cataract       surgery     in both 

    inpatient   and outpatient      settings.     To help HCFA determine 

    appropriate   ASC facility      payment policy      and rates    for the 

    July 1, 1988 payment update,          the OIG conducted     this     followup 

    inspection   on the costs of cataract         surgery    in ASCs. 

    As of December 1987, 893 ASCs were certified                   to participate     in 

    the Medicare         program.      The Medicare    law defines      an ASC as a 

    distinct      entity     that   (1) operates    exclusively      for the purpose

    of providing         surgical    services    to patients    who do not require

    hospitalization,           (2) has an agreement       with HCFA to participate 

    in the Medicare          program as an ASC and (3) meets prescribed

    conditions       for coverage. 

    Payment is made for facility              services    in ASCs on the basis of a 

    prospectively        determined    rate for each covered procedure.             All 

    covered procedures          are assigned      to one of four payment groups.

    Each group is assigned           a single     reimbursement    rate which is 

    adjusted      for geographic      variations       in labor costs.   For 

    multiple      procedures,      ASCs receive      100 percent   of the highest 

    applicable       group rate and 50 percent           of the group rate for the 

    second procedure. 

    The Omnibus Budget Reconciliation             Act of 1986 mandated that 

    the Secretary      of Health     and Human Services      review    and update

    ASC payment rates by July 1, 1987.               Because HCFA had not 

    completed     a survey and audit        of the existing     prospective 

    payment rates,       the 1987 update was based on a projected 

    increase     of 18.7 percent      in the consumer price        index.     The 

    July 1988 update will        reflect      the results   of a survey and 

    audit    which were conducted        during   1986 and 1987. 

    Cataract       extraction     with an intraocular         lens (IOL) implant          is 

    considered        a multiple     procedure.       Ambulatory     surgical     centers 

    receive       separate    payment for the IOL.           Separate    payments may 

    be made also for ancillary             services      which are not considered 

    directly       related    to the provision        of the cataract       procedure. 

    Laboratory        tests   that meet this      criterion      may be billed       by the 

    ASC if the ASC has been certified                 as an independent        laboratory 

    or if it has an arrangement              with a certified        independent

    laboratory. 

                                                 i
.




    Aborted    surgery   occurs when a medical         crisis,   on the scheduled 

    day of surgery,      prevents    the procedure       from being completed. 

    The ASC has usually       incurred       some supply    and staff  expenses,

    but payment of the entire          facility    fee is not justified. 

    A national     payment policy      has not been developed. 

    To gather       information        about current    medical    practices     and the 

    costs associated          with cataract      surgery    in ASCs, the inspection 

    team visited         29 facilities       in 7 States    and interviewed       ASC 

    administrators,          ophthalmologists,       representatives        of trade 

    associations         and lens manufacturers. 

    MAJOR FINDINGS: 

    1. 	   CATARACT EXTRACTION        WITH IMPLANT IS NOT A MULTIPLE
           PROCEDURE. None of         the ASCs reported    any additional
           facility costs when        the extraction    and implant
           are done during the        same operation.
    2. 	   DISCOUNTS, REBATES AND INCENTIVES ARE ROUTINELY OFFERED BY
           LENS MANUFACTURERS AND THEIR SALES REPRESENTATIVES.                   The
           problems      regarding    IOL payments that were discussed         in the
           OIG March 1986 inspection          report   on Medicare   cataract
           surgery      have not been resolved.       Manufacturers     continue     to
           offer     discounts,    incentives    and rebates   which are not
           reflected       in the Medicare    payments for IOLs.
    3. 	   FACILITY COSTS VARY SIGNIFICANTLY;       SUPPLY AND EQUIPMENT
           COSTS CAN BE REDUCED BY GROUP BUYING AND COMPARISON'
           SHOPPING. Some ASCs are unable to control         costs,  while
           others  have successfully lowered     their  supply costs by
           joining  buying groups and negotiating      with vendors.
    4. 	   ASCs REQUIRE, BUT RARELY PROVIDE, ROUTINE LABORATORY TESTS
           FOR CATARACT SURGERY PATIENTS.               Routine     lab tests       are
           required    prior     to cataract     surgery.       Normally,      the patient
           is referred      to his attending        physician,      a hospital       or an
           independent       laboratory    for the tests.         We   found     no
           instances    where the ASC billed           separately      for lab services
           furnished     in connection       with cataract       surgery.        None of
           the sampled ASCs billed           for lab services         provided      under
           contract    with an independent          laboratory.
    5.     ABORTED SURGERY WAS RARE IN ALL BUT ONE OF THE SAMPLED
           ASCs.     In most instances,     when a surgery    is aborted,      the
           ASC absorbs the cost instead        of filing    a claim.      Frequent
           instances    of aborted   surgery   may indicate     a quality     of
           care problem.




                                               ii
RECOMMENDATIONS:
1. 	   THE HCFA SHOULD TREAT CATARACT EXTRACTION WITH IOL IMPLANT
       AS ONE PROCEDURE AND REIMBURSE IT AT 100 PERCENT OF THE
       APPROPRIATE FACILITY PAYMENT RATE EFFECTIVE JULY 1988.
2. 	   THE HCFA SHOULD ESTABLISH A NATIONAL PART B REIMBURSEMENT
       CAP OF $200, WITH A HANDLING FEE NOT TO EXCEED 10 PERCENT
       ($20), FOR ANY IOL BILLED TO MEDICARE.
3. 	   THE HCFA SHOULD BUNDLE THE IOL PAYMENT WITH THE ASC
       FACILITY FEE.
4. 	   THE HCFA SHOULD (A) AUTHORIZE CARRIERS TO PAY ASCs THE FULL
       FACILITY FEE OR A PERCENTAGE OF THE FACILITY FEE WHEN
       SURGERY IS ABORTED, PROVIDED THAT AN OPERATIVE REPORT IS
       SUBMITTED WITH THE CLAIM AND (B) REQUIRE CARRIERS TO
       REPORT ALL CLAIMS FOR ABORTED SURGERY TO THE APPROPRIATE
       PEER REVIEW ORGANIZATION FOR QUALITY OF CARE REVIEW.




                                 iii
                      TABLE OF CONTENTS

                                                          Page

EXECUTIVE SUMMARY 
                                         i

INTRODUCTION 
                                              1

FINDINGS 
                                                  4
      CATARACT EXTRACTION WITH IMPLANT IS NOT A 

      MULTIPLE PROCEDURE 
                                  4
      FIVE COMPANIES DOMINATE THE INTRAOCULAR LENS 

      INDUSTRY 
                                            6

      DISCOUNTS, REBATES AND INCENTIVES ARE ROUTINELY 

      OFFERED BY LENS MANUFACTURERS AND THEIR SALES 

      REPRESENTATIVES 
                                     9

      FACILITY COSTS VARY SIGNIFICANTLY; SUPPLY AND 

      EQUIPMENT COSTS CAN BE REDUCED BY GROUP BUYING 

      AND COMPARISON SHOPPING 
                            13

      ASCs REQUIRE, BUT RARELY PROVIDE, ROUTINE 

      DIAGNOSTIC TESTS FOR CATARACT SURGERY PATIENTS 
     15
      ABORTED SURGERY IS RARE IN ALL BUT ONE OF 

      THE SAMPLED ASCs 
                                   15

RECOMMENDATIONS 
                                          17

APPENDICES
      APPENDIX A:   METHODOLOGY 

      APPENDIX B:   INTRAOCULAR LENS DETAILS 

.




                                  INTRODUCTION 


    Ambulatory    surgical    centers    (ASCs) are discrete   entities 

    operating   exclusively      for the purpose of furnishing        outpatient

    surgical   services     to patients.     Nearly 75 percent    of all ASCs 

    are independently       owned. 

    The first   ASCs were established       in 1970, but their       numbers 

    increased   dramatically      in the early   1980s.     This growth was due 

    in part to the Omnibus Budget Reconciliation             Act of 1980 (OBRA)

    and the American      College   of Surgeons'   approval     of freestanding 

    surgery   centers   in 1981. 'As of December 1987, 893 ASCs were 

    certified   to participate      in the Medicare     program. 

    The Health      Care Financing      Administration     (HCFA) defines    an ASC 

    as a distinct         entity that    (1) operates   exclusively    for the 

    purpose of providing         surgical      services to patients    who do not 

    require     hospitalization,       (2) has an agreement       with HCFA to 

    participate       in the Medicare       program as an ASC and (3) meets 

    prescribed      conditions     for coverage. 

    The OBRA amended Title       XVIII   of the Social       Security     Act to 

    authorize  Medicare    Part B coverage       and routine      waiver     of the 

    Part B deductible    and coinsurance       for facility       services 

    furnished  in connection      with certain      surgical    procedures

    performed  in an ASC. The Secretary           of Health      and Human 

    Services  was required     to develop conditions          of participation,

    establish  payment rates      and specify     the surgical        procedures

    that could be performed       safely   in ASCs. 

    The Omnibus Budget Reconciliation              Act of 1986 directed     the 

    Secretary    to review       and update payment rates       for ASCs by

    July 1, 1987 and annually          thereafter.      The law also mandated 

    that HCFA review        and update the list       of covered procedures        by

    April    21, 1987 and every 2 years thereafter.               The waiver of 

    Medicare    Part B deductible        and coinsurance     requirements     for ASC 

    facility    services     was repealed,      and peer review organizations 

     (PROS) were directed         to conduct quality     of care reviews      of ASCs 

    and hospital      outpatient     departments.      These provisions     also 

    became effective       on July 1, 1987. 

    The Medicare      program reimburses          ASCs for facility        and physician

    services.       Facility    services     include      those services     that would 

    be covered otherwise         under Medicare         if furnished      on an 

    inpatient     or outpatient       basis in connection          with a covered 

    surgical    procedure.       ASC facility        services    include,    but are not 

    limited   to: 

         1.    nursing, technician        and related     services;
         2.    use of ASC facilities;

                                             1
     3. 	    drugs,     biologicals,       surgical     dressings,       supplies,
             splints,       casts and appliances          and equipment        directly
             related      to the provision        of surgical        procedures;
     4. 	    diagnostic        or therapeutic       services       or items directly
             related      to the provision        of a surgical         procedure:
      5. 	   administrative,         recordkeeping,        and housekeeping           items
             and services;
     6.      materials       for anesthesia:        and
     7. 	    blood,     blood plasma,       platelets,       etc.,    except for those
             to which,the        blood deductible         applies.
Excluded     from facility       services    are physician      services   and
medical     and other health        services    for which payment can be made
under other Medicare          provisions     (primarily     Part B).     The HCFA
regulations      specifically       exclude   the following      medical   and
other health      services     from ASC facility        reimbursement:
     1. 	    laboratory,       x-ray or diagnostic       procedures    (other  than
             those directly        related    to performance     of the surgical
             procedure);
     2.      prosthetic     devices;
     3.      ambulance     services;
     4.      leg, arm, back and neck braces;
     5.      artificial      limbs:     and
     6. 	    durable     medical     equipment   for use in the patient's
             home.
Payment is made for facility                 services     on the basis of a 

prospectively         determined      rate,     called    a "standard    overhead 

amount,"      determined        by the Secretary         of Health    and Human 

Services      for each covered procedure.                  In 1982, HCFA developed            a

four-group       classification         system for facility         payment.     All 

procedures       within      each group are reimbursed            at a single    rate, 

adjusted      for geographic         variations        in labor costs.      Between 

September       1982 and July 1987, the four groups were reimbursed 

as follows: 

                    Group    1   -   $231
                    Group    2   -   $275
                    Group    3   -   $296
                    Group    4   -   $336
Group 1 covers the least    complex procedures:                   Group 4 covers
the most complex.   For multiple    procedures,                  ASCs receive
100 percent  of the highest   rate applicable                   and 50 percent   of
the rate for the second procedure.
Because an audit    of the existing   prospective   payment rates had
not been completed,    HCFA based the 1987 ASC rates on a
projected increase    of 18.7 percent    in the consumer price   index
for urban consumers.      The new payment rates    are:


                                             2
c




                       Group    1   -   $274
                       Group    2   -   $326
                       Group    3   -   $351
                       Group    4   -   $399
    Between May and August 1986, HCFA distributed                 the Ambulatory 

    Surgical    Center Payment Rate Survey Form (Form HCFA-452) to all 

    Medicare-participating            ASCs to determine  facility     overhead 

    expenses and procedure-specific             charges.   In addition,       in 

    January    and February        1987, HCFA conducted    an audit     of 97 ASCs 

    to verify      reported     data.    The July 1988 update will       reflect   the 

    results    of this      survey and audit. 

    Almost 71 percent          of the estimated        1.3 million      cataract 

    surgeries     performed       nationwide     in 1987 were performed            in 

    hospital     outpatient       departments.       Ambulatory      surgical      centers 

    account    for approximately           22 percent     of the surgeries.             The 

    remaining     surgeries       were performed       in doctors'      offices      and 

    inpatient     hospitals.         We estimate     that more than 138,000 of 

    approximately        1 million      Medicare   cataract      surgeries      were 

    performed     in ASCs in 1986, and nearly               178,000 were performed            in 

    1987.     Cataract      surgery     is the most common Medicare-covered 

    procedure     performed       in ASCs. 

    In March 1986, the Office              of Inspector        General     issued a report 

    describing      trends    in cataract        surgery      as well as the costs of 

    the procedure       in different         surgical     settings,      including        the 

    ASC. The report,          entitled       "Medicare      Cataract     Implant       Surgery," 

    noted that Medicare          reimbursement         policy     encouraged       inflated 

    prices     for intraocular         lenses     (IOLs) and that discounts 

    negotiated      between providers           and suppliers        were not passed on 

    to the Medicare        program.        The report       recommended establishing               a

    national      cap for lens reimbursement. 

    Methodology 

    The inspection        sample was drawn from a universe                 of 

    591 Medicare-certified            ASCs that perform        ophthalmic        surgery.

    The team visited         29 facilities        in 7 States      (California,

    Arizona,     North Carolina,          Ohio, New Jersey,       West Virginia           and 

    Nebraska)     and collected         information      about the ASCs' costs and 

    standard     operating     procedures.          The team interviewed 

    representatives        of six carriers          that process      claims     for the 

    sampled ASCs, the Federated               Ambulatory     Surgical      Association, 

    other trade and professional               associations      and lens 

    manufacturers.          (See Appendix        A for a detailed        description        of 

    the methodology.) 





                                                  3

                                        FINDINGS

CATARACT EXTRACTION WITH IMPLANT IS NOT A MULTIPLE PROCEDURE 

Since 1982, when HCFA began paying ASCs a facility                 fee, HCFA 

has treated   cataract    extraction    with IOL implant         as a multiple 

procedure   and reimbursed      it at 150 percent        of the Group 4 

payment rate,    which covers the most complex procedures 

performed   in ASCs.     The Group 4 rate is currently            $399.    This 

rate is adjusted     for geographical      variations      in labor costs. 

The current   allowances     for cataract     extraction      with IOL implant 

range from approximately        $584 to $659. 

All of the sampled ASCs reported                that,    in nearly         all Medicare 

cases, cataract         extraction      and insertion         of the IOL are 

performed     during      the same operation.           An IOL would not be 

implanted      if the patient        had certain       health       problems,     such as 

uncontrolled        diabetes     or glaucoma.         Secondary        implants,     or 

cases where a patient            whose cataract        was removed in a previous

operation     undergoes       surgery    for an IOL implant,              account    for 

very few cases in ASCs.              Aside from the cost of the lens 

itself,     which is reimbursed          separately,        facilities        reported     no 

additional       costs attributable         to inserting          the lens during 

cataract     surgery.        Supply and labor costs are the same for an 

extraction       with or without        IOL implant. 

Extracapsular        Cataract      Extraction       is   the   Method    of   Choice 

Currently,        there are three methods of cataract                    extraction-­

intracapsular,          extracapsular         and  phacoemulsification.                In an 

intracapsular          extraction,      the entire       lens,     including      its 

surrounding         capsule,       is removed.      This type of surgery               is more 

invasive      than the other-two            types because the incision                 is 

longer.       During      an extracapsular         extraction,        the surgeon makes 

a smaller       incision,       removes the anterior            portion      of the lens 

capsule     and the lens cortex             and nucleus,        but leaves the 

posterior       portion      of the lens capsule           intact.       Many ophthal­

mologists       believe      that leaving       the posterior         portion     of the 

capsule     intact      helps prevent         damage to the retina             and provides 

support     for the intraocular             lens implant.          Regardless       of which 

method of extraction               is used, the surgeon must either                 use an 

air bubble or some other material,                    such as Healon,           to cushion 

the cornea when inserting                the IOL. 

Phacoemulsification          is a form of extracapsular          extraction, 

because the posterior           portion      of the lens capsule       is left 

intact.      The key difference           between this method and 

extracapsular       extraction       is that phacoemulsification          involves 

the use of an ultrasonic             needle to soften      and liquify      the 

cortex   so that it can be aspirated               through  the hollow      needle. 

During extracapsular           extraction,      the cortex    is manually 


                                                4
expressed     from the eye.         Another      difference        is that the
phacoemulsification          technique       requires       a smaller      incision       than
extracapsular       extraction.        Phacoemulsification              may become more
popular    in the future        because lens manufacturers                 are developing
lenses that can be implanted               through      this    smaller      incision.
Regardless      of surgical      setting,       extracapsular         cataract       surgery
is the procedure         used in approximately              95 percent       of surgeries.
In the first       half of 1987, surgeons used the phacoemulsification
technique     in 16 percent        of all extracapsular              surgeries.         In the
sampled ASCs, extracapsular               cataract      extraction       is clearly         the
planned method for removing               cataracts.         If the capsule          is
damaged during        surgery,     however,      intracapsular          surgery      must be
performed.

                   METHODS OF CATARACT EXTRACTION
                          IN SAMPLED ASCs




                                                                ACOEMULSIFICI\TION
                                                                      21%

                                                INTRAWF’SULAR
                                                      7%



The choice between performing             extracapsular        extraction      and
phacoemulsification         depends more on surgeons'             preferences       than
on patients'       needs.     Surgeons in two of the sampled ASCs prefer
phacoemulsification         because they believe          that patients        heal
more quickly       after   surgery.     In contrast,        the surgeon in
another      ASC does not use the phacoemulsification                  technique
because he believes         that it causes too much trauma to the lens
capsule.       The expense of the technique             is also a consideration
for surgeons       and ASCs.      Phacoemulsification          can cost nearly
$100 per case for supplies           alone.      The cost of a phaco­
emulsification        unit  from one equipment          manufacturer       ranges from
$50,000 to $70,000,         and a repair       contract     for the machine can
cost up to $6,000 per year.




                                              5

FIVE COMPANIES DOMINATE THE INTRAOCULAR LENS INDUSTRY
In 1986, an estimated        1.25 million     lenses were sold in the
United   States.     The intraocular      lens industry    is a $265 million
annual market dominated         by five companies--Iolab,      Cilco,
Optical   Radiation,    Coburn and Allergan.         Together  these five
companies    accounted   for 74 percent       of the U.S. lens market
during   1985-1986.

                   MARKET SHARE OF IOL COMPANIES




Three of the top lens companies             are part of large medical           and
health     care concerns.      In 1980, most of the lens industry               was
controlled      by small independent        companies.       Since then,     large
health     care companies,     attracted      in part by healthy      profit
margins     in the lens business,        entered     the market.     Johnson &
Johnson acquired       Iolab   in 1980 and recently          bought another      lens
company, Precision-Cosmet.             The Rorer Group acquired         Cilco    in
1981 and sold it to CooperVision              in 1986.      American  Hospital
Supply owned American Medical            Optics    until    1986, when it sold
the company to SmithKline           Beckman, which changed the name to
Allergan      Medical  Optics.      Johnson & Johnson and SmithKline
Beckman rank first        and seventh,      respectively,       among the top
U.S. medical       and health    care companies        in terms of annual
revenues.
  Parent Company                   Operatinq   Unit              Revenues*
  CooperVision,       Inc.         Cilco                          $ 6OM
  Johnson & Johnson                Iolab                             60
  Optical    Radiation             Optical   Radiation               30
  Revlon Group, Inc.               Coburn                            25
  SmithKline     Beckman           Allergan                          20
                                                                  $lEM

  *Data    reflect  1985 or 1986 domestic          U.S. sales or the         last
   year    for which complete   financial         data are available.
                                         6
.




    All five     companies manufacture             and sell     ophthalmic       supplies      and
    equipment     as well as lenses:
       Company                             Other Ophthalmic        Products
       CooperVision,        Inc.           phacoemulsifier,        irrigation/aspiration
                                           equipment,      disposable       packs*
       Johnson     & Johnson               diagnostic      equipment,       supplies     and
                                           accessories
       Optical    Radiation                diagnostic      equipment
       Revlon Group, Inc.                  ophthalmic       lasers
       SmithKline     Beckman              ophthalmic       lasers
       *A disposable      pack is a package of accessories        used during
        cataract    surgery.     Packs include   tips to direct       ultrasonic
        vibrations     during  surgery   as well as tubing,     irrigating
        solution    and other items that the surgeon needs.
    Three of these companies              are entering         the lucrative         U.S. market 

    for hyaluronic         acid (a viscoelastic              material,     such as Healon).

    Annual sales of this product                 are estimated         at $70 million. 

    Nearly    90 percent        of all surgeons use viscoelastic                   material 

    during    cataract      surgery     to protect         the cornea.         Pharmacia 

    Intermedics        Ophthalmics,       which manufactures             Healon (made from 

    the cockscombs of roosters),                 currently       dominates      the market, 

    but competition         is increasing.             Another    company developed            a

    product     called     Occucoat and is exploring                the possibility          of 

    packaging       it with its lenses:            the package would be called 

    Oculens.        Pharmacia     Intermedics          was the first       company to 

    package viscoelastic            material'with          its lens.       The package, 

    called    a Viscolens,        consists       of an intraocular           lens and a 

    0.75 milliliter         (ml) syringe         of Healon.         CooperVision's         Cilco 

    Division      developed      a viscoelastic          material      that has a lower 

    molecular       weight    than Healon and is therefore                 less viscous. 

    In January        1987, Optical       Radiation        Corporation       received 

    approval      from the Food and Drug Administration                      (FDA) to begin

    limited     clinical      studies     on Orcolon,         a synthetic       viscoelastic 

    gel.     The company anticipates               full    FDA approval        by mid-1988. 

    Although    all of the leading           lens companies         sell   both IOLs and 

    ophthalmic     equipment,      CooperVision        was the first         to adopt a 

    marketing     strategy     specifically        designed     to increase       sales to 

    providers,      such as ASCs, that are subject                to prospective 

    reimbursement.         This strategy,        known as cross-merchandising, 

    involves    marketing      and selling       multi-product         packages with 

    products    from Coopervision's            many eye care businesses            in order 

    to reduce customer         costs.       These businesses         include    the Cilco 

    Division,     which produces         IOLs, CooperVison          Pharmaceuticals, 

    which manufactures         ophthalmic       drugs and CooperVision            Surgical,

    which manufactures         ophthalmic       equipment      and disposable 

    supplies. 




                                                 7

In 1984, CooperVision           created   a new unit,   CooperVision
Professional      Resources,       which is an umbrella      organization       for
marketing     products    and services      to ophthalmologists.           Rep­
resentatives      of this unit market multi-product              packages from
CooperVision,      help doctors        and staff   members design and select
equipment     for ASCs and advise them on such subjects                 as
reimbursement       and facility       management.    In its first       10 months
of operation,       the unit      signed more than 50 long-term          agreements
with providers.
In the future,            IOL companies may not be as attractive                         to large
health       care companies          and investors        as they have been in the
past.        While formerly          regarded     as a growth industry,                the market
has been reassessed,                and  the   growth     rate     is   now    projected       to be
only 2 to 3 percent               a year,    a  growth      rate     too    low   to   attract
investors.            In September       1986, Ioptex,         which manufactures              and
sells      IOLs, tried         to go public,       but investor           interest       was
absent.         Investors        did not believe        that the company's               large
profit       margins      were sustainable         (Ioptex       reported        a 22 percent
profit       for the g-month period             ending June 30, 1986).                   The
prospectus          for the stock offering            cited      government         regulation
as a risk         factor     that should be considered                 before     buying stock
and noted that future                changes in reimbursement                 for cataract
surgery        could have an adverse effect                 on the growth and
profitability            of Ioptex'      business     and the IOL industry.




                                                8

DISCOUNTS, REBATES AND INCENTIVES ARE ROUTINELY OFFERED BY LENS
MANUFACTURERS AND THEIR SALES REPRESENTATIVES
In the     March 1986 OIG report  entitled                   "Medicare       Cataract
Implant     Surgery," we noted that:
   Lens and equipment       manufacturers      are competing     aggressively
   for sales and market domination.             Large discounts       are common
   and include    equipment       rebates  or credits....       Although    these
   intense   marketing     activities     have sometimes     resulted
   in.. .reduced    costs,    the savings     have not been passed on to
   the Federal    government.
For the     most     part,    these     marketing       practices        have not       changed. 

The HCFA Medicare              Carriers     Manual instructs          carriers       to 

consider       factors      such as actual         acquisition        costs and nominal 

handling       or dispensing           fees to determine         if the prevailing 

charges      for IOLs are inherently               reasonable.         To calculate          a

lens payment price              that is "inherently           reasonable“       is 

particularly         difficult        because of the different              types of 

incentives        that are offered            in exchange for the purchase                  of 

lenses.        While most, if not all,               of the manufacturers'               invoices 

contain      a statement          advising      the purchaser       that it must 

disclose       discounts        to Medicare,       many of the arrangements                 are 

not easily        quantified.            For example,      one lens company offers                to 

create      a custom videotape             for the surgeon to use in his office 

or ASC, while          another       company offers        to pay for training              or 

attendance        at a conference. 

Lens companies          that manufacture,         or have a subsidiary           or 

sister    company that manufactures,               ophthalmic       equipment     or 

supplies      can usually        offer    equipment     allowances      or free 

supplies      in exchange for a contract              which obligates         the ASC or 

ophthalmologist           to buy a minimum number of lenses during                     a

specified       period      of time.      These offers       are especially       tempting 

given the cost of high-tech                ophthalmic       equipment    and the fact 

that supplies          are considered        a part of the ASC facility              rate 

and cannot be billed             separately.       By taking      advantage      of an 

equipment       allowance,       the purchaser       can avoid the entire            capital 

expenditure         for phacoemulsification           units,     microscopes,        lasers 

and/or    irrigation          and aspiration      machines. 

Specific      equipment allowances and free supplies                         that    have been 

accepted      by the ASCs in our sample include: 

   1. 	   microscopes     and phacoemulsification     machine valued                        at
          $135,000    in exchange for purchasing      1,260 lenses:
   2. 	   a phacoemulsification      machine and microscope     worth
          $94,000 in exchange for a 3-year        contract   to buy
          lenses;


                                                9
   3. 	   a post-operative       kit, sunglasses  and eye
          drops with each lens;
   4.     viscoelastic     material   and syringe  with each lens;   and
   5. 	   lens discounts     in exchange for agreement    to purchase
          disposables.
The ASCs usually      do not distinguish        between the cost of the 

lens and the value of the free or discounted                 items when they 

bill   Medicare.    Also,   the carriers      that require       invoices      have 

not developed     imputed values which are subtracted                from the lens 

allowance    when they process      the ASC's or physician's             claims. 

While many ASCs and ophthalmologists             have taken advantage            of 

manufacturer     or sales representative         incentives,       others     have 

not because they are under the impression                that acceptance         would 

be in violation     of the Medicare      law. 

Volume discounts        may be offered       to one ASC while       another    ASC 

cannot,      or has not tried      to, negotiate       a discount    for the same 

lenses.       Volume discounts       are available       for all lenses 

including      those with special        features     such as ultraviolet 

blocker      or laser   ridge.     Invoice     prices    from the five major 

lens manufacturers          that have approximately          74 percent     of the 

domestic      market ranged from a low of $150 per lens to a high of 

$475 in the sampled facilities.                These figures      do not reflect 

any equipment       credits     or free supplies.          Based on equipment 

credits      and imputed values       for free supplies,        the lowest     lens 

price     from one of the five major manufacturers                is $85. 

Of the six carriers          in the OIG sample (representing                    seven 

States),    two require        invoices      to determine         the Medicare         allowed 

amount, two have established                ceilings      that can only be exceeded 

if an invoice       is submitted         and two have established               ceilings 

that cannot be exceeded even if an invoice                        accompanies        the 

Medicare    claim.       The ceiling,        in at least        two cases, was 

determined     by obtaining         list    prices     from-the      major lens 

companies.       Based on the previous              OIG inspection        and 

information      that was obtained           in this      inspection,      list      prices 

do not reflect        actual     acquisition        costs. 

For the sampled carriers,              IOL payment ceilings      ranged from $275 

to $387.50.         One of the carriers,        whose ceiling     without     invoice 

is $335, will          allow up to $500 with an invoice.            Another 

carrier     in the sample will          pay a maximum of $275 for a 

posterior       chamber lens (the most popular           lens) even with the 

submission       of an invoice.         None of the six carriers        in the 

inspection       sample allows       separate   charges for facility         handling

fees.      Nationally,       however,    some carriers     allow from $10 to 

$90.      The sampled ASCs billed           from $0 to $75.      The Medicare 

Carriers       Manual suggests       that a nominal    handling     fee is 

appropriate. 




                                             10 

To determine     true acquisition    costs,  we obtained   current 

discount   prices     which have been negotiated    by some ASCs.       We 

also deducted      from the invoice   price  any equipment    purchase 

allowances     and the value of free supplies,      if possible: 

Equipment     credits                                   Free         supplies 

ASC #7      - $91 per lens                              ASC     #2  - $15                (post-op kit) 

ASC #ll     -   (not determined)                        ASC     #4 - $115                (175 ml Healon) 

ASC #12     -   (not determined)                        ASC     #15 - $115               (.75 ml Healon) 

ASC #13     - $20    per lens                           ASC     #25 - $115               (.75 ml Healon) 

ASC k25     -   (not    determined) 

ASC #26     - $75 per lens 

In addition     to the nine sampled ASCs that receive           equipment 

credits    or free supplies      in exchange for purchasing       lenses,   six 

other sampled ASCs have negotiated           discounts    with lens
manufacturers.       The sample included       12 ASCs that have not _
attempted     to negotiate    prices   and are paying as much as $390
for each lens without       receiving     any free supplies     or equipment
allowance.      The same lens that is costing          one ASC $390 is being
purchased     by another   ASC for $249.       Another   sampled ASC found
that when it requested        a discount,    it was able to save 40
percent:    the lens that has a list        price   of $400 is now sold to
the ASC for $235.

                        IOL INVOICE PRICE COMPARED
                              TO ACTUAL COST



                          Asco




                                 0         100    200          300        400      600
                                                    DOLLAAS

                                     -INVOICE    PRICE     m         ACTUAL COST



Multispecialty         ASCs often   are unable to take advantage   of
discount       arrangements    because they rely on community    physicians

                                                  11
I   :




        to use the ASC and these physicians   may have diverse     lens
        preferences.   The surgeons may bring  their   own lenses,    or the
        ASC must stock a few lenses from several     manufacturers    to meet
        the surgeons'  requirements.
        Because HCFA has not required            the carriers      to limit     their    lens
        payments and the lens is not included                in the ASC facility
        payment rate,      there is no real incentive           for providers         to
        negotiate     discounts.      One respondent       told us that when he
        requested     a discount     on IOLs from a sales representative,                he
        was told:       "Why not leave the lens price           alone?      We can
        negotiate     on other things,        and besides,     Medicare     pays the full
        non-discounted       invoice   price,    so why are you concerned?"
        The sampled ASCs pay an average price              of $254 per lens,
        regardless      of manufacturer.      The average price         per lens for
        ASCs that do not negotiate          any discounts,      credits     or free
        supplies    is $272, while       the average price      for those that
        negotiate     is $239.     Nearly   75 percent     of the facilities        that
        negotiate     pay under $300; for these facilities,              the average
        price    per lens is $200 (see Appendix         B for details).




                                                 12 

FACILITY COSTS VARY SIGNIFICANTLY; SUPPLY AND EQUIPMENT COSTS 

CAN BE REDUCED BY GROUP BUYING AND COMPARISON SHOPPING 

The costs of cataract          surgery     in an ASC depend in large part 

on the surgeon performing            the surgery.         In multispecialty 

facilities,     where more than one ophthalmologist                 performs 

cataract    surgery,    costs vary among surgeons.                These ASCs are 

reluctant    to dictate      the drugs and supplies           that a surgeon can 

use, because their       financial       success depends on attracting 

surgeons    who are willing        to perform        surgery  at an ASC rather 

than a hospital      outpatient        department. 

For example,          one sampled multispecialty            facility    reported      that 

the supply costs associated               with extracapsular         cataract 

extraction       ranged from $158.61 to $186.74 per case. 

In another       multispecialty        facility,      supply costs ranged from 

$127.54 to $163.48 per case.                   Supply costs vary because 

surgeons      prefer     different     drugs and supplies.           In contrast,         in 

single      specialty      facilities,       which are frequently         extensions        of 

an ophthalmology          practice,      costs are determined          by the 

preferences         of the ophthalmologist           who owns and operates          the 

facility. 

Since single        specialty       facilities       are often      extensions       of an 

existing      practice,       they may not distinguish              between ASC-

related      costs and revenues             and office-related         costs and

revenues.        Since the Medicare            regulations       governing      ASCs do
not prescribe         cost accounting          methods,      single    specialty
facilities       can commingle         funds.       One sampled single           specialty
ASC based its estimate             of the cost per cataract               surgery      on the
assumption       that half the total             expenses incurred         by both the
,office     and ASC portion         of the practice          were attributable           to the
ASC. The costs per case in 1986 were $1,038.35,                            which
includes      $87.77 for advertising              and marketing,        $20.50 for
 legal     and accounting        services      and $10.50 for travel             and
entertainment.
Ophthalmologists        often open an ASC not to make money, but to
remain competitive         with other ophthalmologists        and hospital
outpatient      departments      as well as to avoid the operating            room
scheduling      problems     that they have in a hospital       setting.
In fact,     ophthalmologists       in four sampled ASCs reported           that
the facility       fee does not cover all their        costs;   two of the
surgeons     noted that their       professional  fees subsidize         the ASC.
Two other ASCs commented that they "break even."




                                             13 

ASCs Can Reduce the Costs                 of     Cataract           Surgery by Joining
Buying Groups, Substituting                     Supplies           and Comparison   Shopping
Drugs and surgical  supplies                    for cataract   surgery             can account
for more than 50 percent     of                 an ASC's total    costs            per case.

                      FOUR COMPONENTS OF ASC COSTS
                      PERCENT OF COSTS
               100%




                25%




                          AsCl           ASc2             ASc3           ASc4
                                       FOUR SAMPLED ASCs
                      m   LA~~OR   m   EQUIPMENT        EQ DtwGs        SUPPLIES


Since ASCs receive        a fixed     fee for performing     the surgery         and
cannot bill    separately       for drugs and supplies,        facilities        have
an incentive    to find ways to lower the costs of these two
items.     One way is to join         a buying group.     By paying monthly
dues, the ASC can take advantage             of the lower prices          that the
buying group negotiates           with suppliers.      One sampled ASC that
belongs    to a national      buying group saves 30 percent             when it
buys a 0.75 ml syringe          of Healon.      The manufacturer's          list
price   for Healon is $65 for a 0.4 ml syringe              and $115 for a
0.75 ml syringe.       The ASC pays $83 instead          of $115.
Another    way to lower supply costs is to buy less expensive
supplies.       For example,  two sampled facilities          use Amvisc
instead    of Healon to save money.         One  of   these    facilities
previously      used Healon,  which    cost  $90  per    surgery,       but
switched     to Amvisc and saved $35 per surgery.             The      surgeons in
two other sampled ASCs do not incur           any costs for viscoelastic
material,      because they inject     an air bubble into the eye to
protect    the cornea during     cataract    surgery.
Eight   facilities       found they could obtain              lower prices   by
comparison       shopping    among suppliers.             They saved more money
than if they purchased             supplies     through     buying groups.       One
sampled facility         annually      solicits       bids for surgical     supplies
to find out which companies               offer     the lowest prices,      while
another    ASC decreased         its costs by 67 percent            for balanced
salt   solution      (an irrigating         solution)      and by 25 percent      for
Amvisc by negotiating            reductions       with its suppliers.
                                                   14
ASCs REQUIRE, BUT RARELY PROVIDE, ROUTINE DIAGNOSTIC TESTS FOR 

CATARACT SURGERY PATIENTS 

Medicare    regulations        specify     that ASCs can receive 

reimbursement       for simple       tests    provided    only on the day of 

surgery,    primarily      urinalysis        and blood hemoglobin        or 

hematocrit,      which must be included             in their   facility      charges. 

Medicare    will    not reimburse         an ASC for other diagnostic            tests, 

such as an electrocardiogram               (EKG), chest x-ray or a complete 

blood count (CBC), unless              the ASC is certified          as an 

independent      laboratory. 

As the following         table     illustrates,           the sampled ASCs' policies 

on the diagnostic          tests      required       prior   to cataract surgery    are 

not uniform: 

       Diagnostic  Test(s)                        # of ASCs Where Required
       CBC                                                  19
       EKG                                         .        17
       CBC and EKG                                          15
       Chest x-ray                                           5
       CBC, EKG and chest           x-ray                    4
Most of the sampled ASCs reported                that they require         patients 

to undergo a history          and physical       exam prior    to surgery. 

However,     the ASCs have no standard             set of diagnostic         tests 

that they require        before     surgery.       Sixty-six   percent       of the 

ASCs require        a CBC, 59 percent        require     an EKG and 17 percent 

require     a chest x-ray.         Normally,     the ASC refers       patients       to 

their    attending     physicians,      a hospital       or an independent 

laboratory       for the tests.        Ten percent       of the facilities 

reported      that the required        services      depend on the results           of 

the history        and physical. 

There is far more uniformity             among ASCs concerning             the tests 

that are performed         on the day of surgery.            Nearly       80 percent 

of the sampled facilities           perform      either    no laboratory        tests 

at all or only simple tests,             consisting       of a hematocrit         and 

urinalysis.        About half of the ASCs perform              these tests        at a 

combined cost not exceeding            $2.00.       There is no separate 

charge for these tests;          the costs are incorporated                in the 

facility      fee.    None of the sampled ASCs had sophisticated 

diagnostic       equipment   on the premises          that would enable them to 

perform     tests    other than a hematocrit            and urinalysis. 


ABORTED SURGERY IS RARE IN ALL BUT ONE OF THE SAMPLED ASCs 

Sometimes ASCs must cancel or abort surgery.                The ASCs must 

cancel   surgery    if a patient     is ill   or eats after    midnight    on 

the day of surgery.       ASCs must abort surgery         if a patient 

develops    complications     during   preparation    for surgery     or 


                                              15
during  the procedure      itself.       Common medical      indications       that 

surgery   should be aborted        include    an increase      in pressure       in 

the eye, elevated     blood pressure         and cardiac     or respiratory 

arrest.    In the event of cardiac           or respiratory        arrest,   the 

ASC would transfer      the patient        to a local    hospital. 

Aborted     surgery      is rare because facilities              screen their 

patients     before      surgery     and require      patients      to undergo

certain     diagnostic        tests   to determine       if they are good

candidates      for outpatient          surgery.      Nearly     90 percent     of the 

sampled ASCs reported              8 or fewer cases of aborted             surgery

since opening.           Forty-one      percent    of the ASCs reported           no 

cases of aborted           surgery.      In one sampled facility,             aborted 

surgery     was more common.            According     to that ASC's 

administrator,         the aborted       surgeries      occurred      because the 

facility's      preoperative         screening     procedures       were inadequate. 

Reportedly,       procedures        have been changed,         and instances        of 

aborted     surgery      have declined. 

In most instances,           ASCs absorb any costs incurred                 in 

connection      with a case of aborted             surgery     instead      of filing        a

claim.     These costs could include               any preoperative           supplies, 

such as drapes,          gowns and medications,            and the staff         time 

spent admitting          and preparing       the patient       for surgery.           Three 

of the six carriers           for the ASCs in the sample reported 

receiving     no claims        for reimbursement         for aborted        surgery.

Another    carrier       estimated      that claims      for reimbursement 

totaled    only 10 a year.            Three carriers        noted that they would 

reimburse     facilities         for aborted      surgery     after    reviewing        their 

claims.     Two of these carriers              reported     that if a claim were 

approved,     the facility          would receive       a percentage        of its usual 

rate. 





                                             16 

.




                                RECOMMENDATIONS

    RECOMMENDATION #I-- THE ASC PAYMENT RATE FOR CATARACT SURGERY
    FINDING:  None of the sampled                ASCs incurs  additional    facility
    costs when cataract  extraction               and IOL implant     are done during
    the same operation.
    RECOMMENDATION: The HCFA should discontinue           regarding
    cataract   extraction     with implant  as a multiple    procedure.
    Reimbursement      should be 100 percent    of the appropriate
    facility   payment rate effective      July 1988.
    IMPACT:      Medicare    reimbursement            for   cataract   surgery    would
    reflect     current   medical    practice.            Program savings       cannot be
    projected      until  the 1988 update             rates    are established.
    HCFA RESPONSE: The HCFA will    implement                   this     recommendation
    when the ASC payment rates   are updated.
    RECOMMENDATION #Z--LENS           REIMBURSEMENT
    FINDING:      The problems     regarding      lens payments that were
    discussed     in the OIG March 1986 inspection             report    on ,Medicare
    cataract    surgery   have not been resolved.            Manufacturers
    continue    to offer    discounts,      incentives     and rebates      that are
    not passed on to the Medicare             program.     Current    reimbursement
    policy    does not provide       an incentive      for providers      to be
    prudent    buyers.
    RECOMMENDATION: The HCFA should establish                          a national   Part B
    reimbursement     cap of $200, with a handling                     fee not to exceed
    10 percent    ($20),  for any intraocular   lens                   billed   to Medicare.
    IMPACT:      As a result     of this recommendation,    which was
    contained      in our draft    report,  the Omnibus Budget
    Reconciliation       Act of 1987 (OBRA 1987) mandated that payment
    for IOLs be limited        to the acquisition     cost, taking into
    account     any discount,     plus a handling   fee not to exceed 5
    percent     of that cost.
    We estimate     that more than $14 million         in ASC payments alone
    could be saved annually          if HCFA established     a cap of $200.         The
    savings   per IOL would be $107.          Assuming that 71 percent          of
    cataract    surgeries    (approximately      710,000 Medicare      surgeries)
    are performed      in outpatient     departments     of hospitals,     applying
    the cap would yield       additional     annual program savings        of more
    than $75 million      in payments to hospitals.
    HCFA RESPONSE: The HCFA will     study the OIG data base for
    purposes of proposing a national     cap for IOL reimbursement.

                                                 17
_ .




      RECOMMENDATION #s--BUNDLED          LENS PAYMENTS 

      FINDING:   Prospective     payment rates          encourage    ASCs to be 

      prudent  buyers.     Through negotiations           and comparison     shopping, 

      some ASCs have realized       significant         savings   for supplies. 

      RECOMMENDATION: The capped lens                payment should be bundled 

      with the ASC facility prospective               payment rate for cataract 

      extraction with IOL implant. 

      IMPACT:       The OBRA 1987 has incorporated         this recommendation            by 

      requiring       that HCFA bundle the IOL payment with the facility 

      fee.      This will    encourage     the ASCs to negotiate      lower lens 

      prices.       In addition,     bundling   will  reduce carrier 

      administrative       costs by eliminating       the need for separate 

      payment determinations          for IOLs. 

      HCFA RESPONSE: The HCFA intends   to implement  this 

      recommendation when the ASC payment rates   are updated. 

      RECOMMENDATION #I--ABORTED          SURGERY 

      FINDING:   Aborted   surgery    was rare in all but one of the 

      sampled ASCs.     In most instances,       when surgery    is aborted,      the 

      ASC absorbs the cost instead       of filing    a claim.      Frequent 

      instances  of aborted    surgery   may indicate     a quality     of care 

      problem. 

      RECOMMENDATION: The HCFA should              (a) authorize      carriers        to pay 

      ASCs the full     facility      fee or a percentage        of the fee      when 

      surgery   is aborted,       provided   that an operative        report     is 

      submitted   with the claim to justify           the payment amount           and 

      (b) require    carriers      to report    all claims     for aborted       surgery 

      to the appropriate         peer review organization          (PRO) for     quality

      of care review. 

      IMPACT:    A uniform    national  policy    would allow ASCs to receive 

      reimbursement     for legitimate   costs that have been incurred.                In 

      addition,    PROS could determine      if the aborted       surgery  indicates 

      a quality    of care problem that warrants        disciplinary      action. 

      HCFA RESPONSE: The HCFA agrees that there should be a uniform 

      national policy    with respect  to payment for aborted    surgery.

      The HCFA also agrees that information      on aborted  procedures

      should be furnished     to the PROS. 





                                              18 

    .
.



                                                                                APPENDIX A 

                                                METHODOLOGY 

            The inspection         team used a two-stage       cluster     sample with
            stratification         at the second stage to identify           ASCs for data
            collection.         Using a list    of all ASCs currently         certified  to
            provide       Medicare    services,  we identified       a universe      of
            591 facilities         that met the following        conditions:
                        1.     the facility   provided   ophthalmology   services,
                        2. 	   the facility's    service  date was prior    to
                               January 1, 1987‘ and
                        3. 	   the facility   had not been terminated     as of
                               September 30, 1987, when the facilities         were
                               selected.
            At the first         stage,   we selected      States with probability 

            proportional         to size with replacement.            The size of each State 

            was determined          by the number of ASCs in each State that met the 

            three conditions.            We selected      seven States       in this manner and 

            selected       one State,     California,      three times.        Within   each 

            State,     the ASCs were arrayed            by location     (urban versus rural). 

            Where possible,           we selected     one rural     and three urban ASCs in 

            each State.          If there were fewer than four ASCs meeting                  the 

            three conditions           in a given State,        all of the ASCs were 

            selected       for the sample.          Three States--Ohio,        New Jersey and 

            Nebraska--did          not have any rural        ASCs certified       by HCFA. Three 

            separate       subsamples     were selected       in California.         The following 

            table    lists     the States      selected    along with the number of urban 

            and rural        ASCs in each: 

                                      # of ASCs                             Percent    of
        -     State                  Urban   Rural               Total      Universe
              California              115       5                 120        20.3
              Arizona                   27    10                    37         6.3
              North Carolina            15      z                   20        3.4
              Ohio                      15                          15        2.5
              New Jersey                15      0                   15         2.5
              West Virginia              1      2                    3        0.5
              Nebraska                2         0                    2        0.3
              TOTAL                   190     22                  212        35.8

               # sampled                26         7                33         5.6

            Of the 33 ASCs selected           for the sample,    5 were found not to
            perform  cataract      surgery.       We substituted    one facility       for one
            of the excluded       ASCs, because it is located          nearby and is owned
            by the same party.         Of the 29 facilities       visited,      two were
            unable to supply data on the costs of intraocular                   lenses
            because the surgeons        bring     their  own lenses and bill        for them
            under their    individual       provider    numbers.

                                                       A-l
        1
-   .




            The following        projections       were calculated       using the appropriate
            weighting       based on the sampling          design described         above.     All
            averages     reported       are weighted      averages     and appropriate       to the
            universe     of 591 facilities.             We calculated      savings    under three
            scenarios.         The first      scenario    assumes that reimbursement            is
            capped at $200 per IOL.               The second scenario         assumes a $200 cap
            and a handling         fee of $25.         The third    scenario     assumes a $200
            cap and a handling           fee of $15.       The expected       expenditures      under
            current     pricing      are based on the allowed           amounts reported        by
            the carriers        serving     the universe       of 591 ASCs.       The following
            tables     show projected         surgeries    and savings       under the three
            scenarios:
                                              PROJECTED SURGERIES
                                                                     90% Conf.     Interval
            Estimated     Number of     Cataract        Surgeries    Lower         Upper         p*
                         138,527     (1986)                          92,557        184,497     20.2%
                         177,985     (1987)                         141,147        213,823     12.6%

                          PROJECTED EXPENDITURES AND SAVINGS ($ in                 000s)
                                                    Expenditures/     90% Conf.     Interval
                                                    Savings            Lower          Upper      p"
            Expenditures:
             o under Current   Pricing               $54,043         $42,413       $65,672      13.1%
             o under Cap of $200                      35,597          28,229        42,964      12.3%
             o with $25 handling     fee              40,047          31,758        48,335      12.6%
             o with $15 handling     fee              39,867          31,544        48,208      12.7%
            Savings:
             o under Cap of $200                     $18,446         $12,001       $24,890     21.2%
             o with $25 handling fee                  13,996           7,877        20,116     26.6%
             o with $15 handling fee                  14,167           7,989        20,344     26.5%
                        *Precision     of     the   estimate.
            Based on the above data,         the average savings     per ASC is-$34,800
            with a $200 cap, $26,400 if a $25 handling            fee is allowed     and
            $26,700 if a $15 handling          fee is allowed.    The savings   per IOL,
            assuming the cap is $200, is $107 if no handling             fee is paid
            (90% confidence    interval,,      $73 to $141),   $84 if the fee is $25
            (90% confidence    interval,       $51 to $116) and $93 if the fee is
            $15 (90% confidence      interval,     $60 to $126).




                                                         A-2 

                                                                        APPENDIX B 


                              INTRAOCULAR LENS DETAILS
We collected       information      on the types and costs of intraocular
lenses used in the 29 sampled facilities.                    We obtained      usable
data from 27 ASCs because in two facilities                     (#5 and #18), the
lenses are not supplied            or billed    by the ASCs and no specific
lens information          was available.       Both facilities       are
multispecialty         ASCs that are used by community             ophthalmologists.
In another       multispecialty      ASC, the lenses are provided             by the
surgeon but are billed          to Medicare      by the ASC. For this
reason,      data from the facility          was included      in the calculations.
Some of the        sampled ASCs are extensions        of an ophthalmologist's
office,     and    the IOLs are billed       using the physician's     provider
number rather         than the ASC's.      For these ASCs, the carriers
were able to         obtain  the data we needed by accessing        the
physician's        provider    number profile.
We found      that 15 ASCs negotiated     lower           lens   prices   or received
equipment       credits or supplies   from the            lens   manufacturers:
ASC     Invoice      price1        Actual    price2
 #2               $275                 $260
                   213                  213
 fi                295                  205
                   401                  310
,ill               380                  380 less       undetermined     equipment     credit
 #12               380                  380 less       undetermined     equipment     credit
 #13               150                  130
 #15               175                   85
 #16               235                  235
 #20               300                  300
 #22               235                  235
 #23               205                  205
 #24               250                  250
 #25               276                  161
 #26               300                  225
 Six of these facilities        negotiated            lower prices.     The remaining
 nine ASCs received      either   equipment             credits  or free supplies,    but


       lThe    lowest    invoice     price    for     any lens   used   in   the   ASC.
       2The invoice  price    less any discount,     equipment                allowance
        or free supply    (of a known value)     that had not                 been
        subtracted  by the lens company from the invoice                       price    for
        each IOL.

                                             B-l
the invoices   did not reflect     actual    acquisition      costs because
the company did not deduct the value of the credit                or supplies
from the price    shown.    Twelve ASCs did not obtain           any discounts
and did not mention      any equipment    credits      or free supplies:
ASC       Invoice    price
            $275
It’6         290
             280
f;           195
#lO          195
#14          294
#17          390
#19          205
#21          375
#27          265
#28          255
#29          240
Eleven of the 15 ASCs (73.3 percent)             that negotiated      lower lens
prices  or receive      equipment  credits/free       supplies   pay less than
$300 per lens.      The average lens acquisition            cost for these 11
ASCs is $200.      The four ASCs that pay $300 or more are considered
to be paying   inflated      lens prices     for the following      reasons:
ASC       Reason
#7 	    This ASC received      a phacoemulsification         machine and two
        microscopes    worth at least    $135,000      from a lens company
        in exchange for a contract       to purchase       lenses.    For each
        lens purchased;     the ASC receives        a $91 equipment    credit
        which is mentioned      at the top of the invoice          but is not
        subtracted   from the prices     shown for the itemized          lenses.
#ll 	   This ASC received    a phacoemulsification     machine and a
        microscope   from a lens company in exchange for an
        agreement  to purchase   lenses.      The ASC receives an
        equipment  credit  which is not shown on the invoice.
#12 	 This ASC received    a phacoemulsification   machine and a
      microscope  valued at $94,000 in exchange for an agreement
      to purchase  lenses.    The ASC receives   an equipment credit
      which is not shown on the invoice.
#20 	 This ASC is receiving         a discount    price  of $300 for a lens
      that lists for $370.          Another    ASC in our sample is paying
      $213 for a comparable         lens from the same manufacturer.
Since nearly   75 percent   of the ASCs that negotiated        lower
prices  or receive   equipment   credits/free      supplies pay an
average price    of $200 per lens and since the remaining          25
percent  pay what we consider      inflated    lens prices,  we believe
that a cap of $200 is reasonable          and appropriate.

                                       B-2
